<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: STATUS OF NONRESPONSE FOLLOW-UP AND CLOSEOUT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





   OVERSIGHT OF THE 2000 CENSUS: STATUS OF NONRESPONSE FOLLOW-UP AND 
                                CLOSEOUT

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2000

                               __________

                           Serial No. 106-225

                               __________

       Printed for the use of the Committee on Government Reform

                               ----------

                   U.S. GOVERNMENT PRINTING OFFICE
72-446                     WASHINGTON : 2001


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Jane Cobb, Staff Director
                 Vaughn Kirk, Professional Staff Member
                 Amy Althoff, Professional Staff Member
                        Andrew Kavaliunas, Clerk
                    David McMillen, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 22, 2000....................................     1
Statement of:
    Prewitt, Kenneth, Director, Bureau of the Census.............    21
Letters, statements, etc., submitted for the record by:
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Information concerning an impact statement...............    12
        Prepared statement of....................................    16
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida:
        Pieces of correspondence from Director Prewitt...........    62
        Prepared statement of....................................     5
    Prewitt, Kenneth, Director, Bureau of the Census:
        Letter dated September 19, 2000..........................    42
        Prepared statement of....................................    24
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, letter dated June 14, 2000...............    55

 
   OVERSIGHT OF THE 2000 CENSUS: STATUS OF NONRESPONSE FOLLOW-UP AND 
                                CLOSEOUT

                              ----------                              


                        THURSDAY, JUNE 22, 2000

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Maloney, Davis of 
Illinois, and Ford.
    Staff present: Jane Cobb, staff director; Chip Walker, 
deputy staff director; Vaughn Kirk and Amy Althoff, 
professional staff members; Michael Miguel, senior data 
analyst; Andrew Kavaliunas, clerk; Michelle Ash, minority 
counsel; David McMillen and Mark Stephenson, minority 
professional staff members; and Earley Green, minority 
assistant clerk.
    Mr. Miller. Good morning. A quorum being present, the 
subcommittee will come to order.
    Last night the subcommittee was notified that the Bureau 
had a 3-minute video regarding the census that they would like 
to air, and before we get started, I would like to go ahead and 
play the videotape for our viewing audience. If you will 
proceed.
    [Videotape played.]
    Mr. Miller. Thank you. It was interesting to see that. It 
highlights the successful outreach that has taken place around 
the country. Now I will proceed with my opening statement.
    The operations of the full enumeration census--as mandated 
by the Supreme Court--are coming to a close. Nonresponse 
followup, the most complex part of the full enumeration, is 
near the end.
    The hard work of the enumerators has not gone unnoticed by 
this chairman or this Congress. They are to be commended for 
their hard work and civic duty in helping to count America.
    Some, unfortunately, have paid the ultimate price. They 
have paid with their lives. It's the sad reality of such a 
large operation. Despite our political wrangling that goes on 
here from time to time, make no mistake that we regret any 
tragic loss of life to the Census family. I know I speak for 
all members of the subcommittee, and the Congress, when I say 
that our condolences go out to all of the friends, family and 
loved ones of those who have lost their lives in the civic 
service of our Nation.
    Director Prewitt, you have called the full enumeration the 
``Good Census.'' I hope it is the good census. In fact, I hope 
it's the better census; but I do have some concerns. My 
concerns are that it may prove to be the rushed census. On 
numerous occasions in the past couple of weeks, concerned 
Census Bureau employees, some at the managerial level, have 
contacted my office. They were all concerned with one point--
quality.
    They all expressed a feeling of tremendous pressure to 
finish ahead of schedule. There is nothing fundamentally wrong 
with finishing ahead of schedule as long as quality isn't being 
sacrificed. One local Census office manager, currently 
employed, said the pressure was too great from the regional 
office; that the regions were in such fierce competition with 
each other that it was putting unwarranted pressure on the 
local Census offices.
    In your testimony you spoke of a June 15 internal deadline 
cutoff date for nonresponse followup. An internal date of June 
15 gives me concern for the following reasons. In interviews 
conducted by the subcommittee in the Los Angeles Region, we 
found that the regional deadline was June 10. This is almost a 
month ahead of the public deadline of July 7 and a week ahead 
of the internal headquarters' deadline of June 15. It's easy to 
see how this rush to complete the work can spiral out of 
control as one region attempts to finish ahead of another. For 
the benefit of our viewing audience, let it be known the Census 
Bureau has divided the Nation into 12 regions.
    Director Prewitt, you have assured us that your enumerators 
would take the time necessary to get a complete and accurate 
count even if it meant staying in the field beyond July 7. It 
doesn't seem to me this is happening.
    Unless the undercount has been eliminated, why are people 
pulling out of the field before July 7? You are ahead of 
schedule and under budget, so why leave the field? We would 
expect to hear complaints of rushed enumeration in the closing 
days of the nonresponse followup, not weeks before your self-
imposed public deadline.
    In Florida, at the Hialeah Census Office, they finished a 
nonresponse workload of 82,000 households in 22 days. That is 
extraordinarily fast. However, it seemed that no red flags were 
raised at the regional level. To the contrary, the workers were 
rewarded by being sent to another office that had yet to 
complete its workload.
    Whistle blowers at this other LCO wrote a letter to 
Congresswoman Carrie Meek which resulted in an investigation by 
the Inspector General. The IG investigation determined that 
there were improper enumerations going on by the Hialeah team. 
They also determined that the Hialeah office had all along been 
getting third-party interviews far too quickly and clearly 
violating Census Bureau procedures. The investigation also 
determined that the manager of the Hialeah office had 
instructed his enumerator to take shortcuts. The situation was 
so bad that there is consideration that the entire Hialeah 
workload may need to be redone. It is also my understanding 
that so far, no disciplinary action has been taken against this 
manager or his immediate supervisors. I hope I am wrong.
    None of your quality control procedures caught this 
problem--not your area manager or the regional technician. How 
many Hialeahs are there? I can tell you that the IG is 
concerned about quality and we are concerned about quality. How 
many Hialeahs are out there?
    According to your records, 46 LCOs completed more than 15 
percent of their workload in the 6th week of the nonresponse 
followup. Some of them claimed more than 20,000 visits in a 
single week. How many of those 46 LCOs cut corners to make the 
June deadline?
    Last week the Commerce Secretary announced a half-hearted 
attempt to remove politics from the census, a regulation that 
would give full, unreviewable authority to the Director of the 
Census Bureau to decide whether to release the adjusted census 
numbers. The announcement would have made more sense coming on 
April Fool's Day than in June. The transferring of 
decisionmaking authority from the Commerce Secretary to the 
Census Bureau Director doesn't make the decision to release 
manipulated numbers any more palatable or less political.
    Dr. Prewitt you are, after all, a political appointee. 
Political appointees are appointed to positions because they 
have beliefs that are fundamentally the same as the President's 
and could be expected to carry out the President's agenda. As 
you have said yourself, unlike, for example, the FBI Director, 
you serve at the pleasure of the President. Are we to believe 
that this President and the Commerce Secretary put forth a 
candidate that didn't support their positions on the use of 
adjusted numbers? Need I remind everyone that Secretary Daley 
is leaving the Commerce Department to help Al Gore's failing 
Presidential campaign? This decision was political from the 
very beginning.
    This proposed regulation isn't about accuracy and 
nonpartisanship. It's about Presidential politics. It's all 
about trying to raise the stakes for Governor Bush. My 
colleague from New York called it ``a Kodak moment.'' what 
amazed me about that quote was her candor in acknowledging that 
the next President would, in fact, be Governor Bush. These are 
desperate times for m<plus-minus>y Democratic colleagues, so it 
doesn't surprise me that they would attempt to stack the deck 
before Inauguration Day.
    This proposed regulation is fundamentally flawed. In fact, 
I have here with me a legal opinion from the Congressional 
Research Service that states the following, ``although the 
Secretary may delegate the tasks associated with the decision 
to the Director, Congress delegated the authority to him and he 
cannot purport to divest himself of the decisionmaking 
authority and responsibility.''
    What you're trying to do is usurp the authority of 
Congress--to violate the law, plain and simple. Of course this 
isn't the first time that this administration has attempted to 
violate the law regarding the census, and I suspect it won't be 
the last.
    Is there nothing this administration won't do to get the 
illegal census it wants? And go through all this effort to have 
your final plan thrown out of the courts anyway? It really is 
quite amazing.
    Furthermore, I outright reject the notion that the Census 
Bureau is capable of carrying out a self-audit. I know that the 
employees of the Bureau are sensitive to my comments. But this 
isn't a condemnation of their character; rather, a realization 
of human nature.
    Look at this from a business model. I am sure many people 
in here own stock in a corporation, and when you look to 
analyze the financial health or the chances of success of a new 
business venture for that same corporation, where do you look? 
You look to an independent auditor or independent analyst. 
Well, the American people are the shareholders and the Census 
Bureau is your corporation. A self-audit is simply an 
unacceptable business practice. Director Prewitt, surrounding 
yourself with 13 or 30 Bureau professionals doesn't get us to 
an independent analysis. Many of these people have invested the 
past few years of their lives developing this plan. I don't 
have confidence that they will get to the brink of fruition of 
their arduous labor and objectively pull back if that's what's 
needed. No one should be put in that position. And no objective 
executive would accept such a self-audit.
    Self-audits lead to failure. We need look no further than 
what is currently going on at Los Alamos. The Secretary of 
Energy rejected an independent security review. He said the 
Department was capable of correcting the failures; outsiders 
were not needed.
    What transpired was a breach of security of such enormous 
proportions that we still do not know of all the ramifications. 
Self-audits lead to failure.
    As you have testified, even the National Academy of 
Sciences and other statistical groups and universities will not 
have time to analyze the ACE, or the sampling plan, before it 
is released to the States. In your opening statement you talk 
about this being the most transparent census ever, and you talk 
about public scrutiny. What public scrutiny is there going to 
be of the adjusted numbers before they are released? I can tell 
you, there will be none. No independent review, no specific 
study, just a group of Census Bureau insiders advising you. 
This is not public scrutiny. It's a whitewash. Any State that 
accepts these numbers is playing roulette with their 
redistricting programs.
    I also firmly believe there is reason to be concerned when 
the administration divests itself of the ultimate 
responsibility for the certification of these numbers. While I 
admire your willingness to take this decision on yourself, this 
is a Cabinet-level decision. Someone at the Cabinet level needs 
to be responsible for the mess that's going to be caused by 
releasing two sets of numbers. This administration, which is 
notorious for not taking responsibility for anything that's 
bad, must be held accountable in this case to the highest 
levels. Not only is the plan put forth by the Secretary a 
violation of Federal law, on its face, it doesn't stand up to 
reasonable scrutiny.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T2446.001
    
    [GRAPHIC] [TIFF OMITTED] T2446.002
    
    [GRAPHIC] [TIFF OMITTED] T2446.003
    
    [GRAPHIC] [TIFF OMITTED] T2446.004
    
    Mrs. Maloney. Thank you, Mr. Chairman, and welcome again, 
Dr. Prewitt.
    Mr. Chairman, I don't understand what will make you happy. 
I get the feeling if they were slow and not fulfilling the 
timetable, you would call it a, ``failed census request'' 
because they were not meeting the deadline. Now that they are 
meeting the deadline, you are calling it a rushed census.
    I want to say that the census is about people, it is not 
about politics. It is about making sure that everyone in 
America is counted. I must respond to your political statements 
in your opening statement. I certainly do not believe that 
Governor Bush will be President, for a number of reasons which 
I will not go into, but since we are at a census hearing, I 
will go into a census reason, and that reason which I was 
referring to is that he will not come forward and say that he 
supports adjusting for the undercount, which we know missed 13 
million people in 1990, and if we don't adjust for the 
undercount we will miss even more.
    So for a whole host of reasons which I would love to tell 
you about, which would take several hours, I can tell you he is 
not going to be President, but one of them is that he will not 
count adequately minorities, blacks, Latinos, Asians, American 
Indians, and the poor in the rural areas and the urban areas, 
which the scientists have told us are undercounted--not the 
politicians, the scientists--and we have four independent 
reports that tell us that.
    First, I want to thank you, Dr. Prewitt, for the tremendous 
job I believe you and your staff have done so far. Everything I 
have heard and read indicates that the 2000 Census is well on 
the way to being a great operational success. Despite the 
cautious stance you have taken, I believe that the 2000 Census 
may well be the best, fairest and most accurate census ever, a 
very fitting way to start the 21st century. It will be that way 
not just because of the operational successes we have seen to 
date, but ultimately because it incorporates modern scientific 
methods into the design.
    The census is now in the final weeks of the nonresponse 
followup operation. It seems to me to be about 2 weeks ahead of 
schedule, but will certainly end on time. This success must be 
added to many others, but the two major ones in my opinion--
achieving a 65 percent mail-back response rate, and this 
reversed 3 decades of a downward trend in response rate. 
Congratulations to you and the Department and all of the 
professionals in the field.
    Also, recruiting and hiring all of the personnel you needed 
to do the massive job you have done, especially during this 
time of economic expansion when there is such low unemployment. 
I must tell you, I was truly amazed that you were able to hire 
so many people on a short time basis for this project.
    Mr. Chairman, I am sure that the Director agrees that these 
successes would have been next to impossible without the full 
funding provided by Congress for the Census 2000 and I commend 
you again, Mr. Chairman, for your leadership role in achieving 
this. Thank you very, very much.
    I also want to strongly commend Secretary Daley for last 
week's announcement that he is delegating to the Census Bureau 
Director the decision about whether or not to release corrected 
numbers next spring. I believe the Secretary has wisely decided 
to take the politics out of this decision by leaving it up to 
the professionals at the Census Bureau, the professionals with 
the statistical and operational expertise to make what is 
ultimately a technical, scientific and operational decision, 
and to make it in an open and rigorous way in the full light of 
day.
    I want to note Mr. Ryan's supportive comments and would 
hope that more members would speak out and be supportive of 
this action, as he has.
    I was particularly happy to hear that not only former 
Director Richie under President Clinton, and Bryant under 
President Bush, supported this action, but also the former 
Directors under Nixon and Carter--Census Director Vincent 
Barabba who in fact had that authority under President Carter--
all have joined in supporting this decision by Secretary Daley.
    I only hope that the rule will go into effect and will be 
the process by which the Census makes its decisions next year.
    Mr. Chairman, I also believe that the Census Bureau should 
be more insulated from political pressures than is currently 
the case. I believe from your opening statement that you feel 
the same way. The census should be about accuracy and the best 
data possible. It should be protected as far as possible from 
nonscientific influences.
    To further that end, I am drafting legislation and hope to 
have it in before Congress before the end of the week which 
would require the Census Bureau Director to serve for a defined 
term, possibly 5 years. He or she would continue to be 
Presidentially appointed and confirmed by the Senate. In this 
way, the Director could be protected from any political 
influences by Congress or Presidential elections.
    I would welcome the chairman's input and cosponsorship of 
this legislation. It should truly be bipartisan and it would 
achieve a goal that you mentioned, removing the Census 
Department completely from politics with a set term.
    Frankly, Director Prewitt, if I could figure out a way to 
do this, I would make you Director for life. I think you have 
done an outstanding job. Thirty percent of your time is 
responding to requests from Congress. You are ahead of 
schedule. You have done a great job, but I don't think that 
your family would approve of that, but you have done a 
wonderful job and I thank you.
    Although it seems like the decennial is on its way to an 
unmitigated success, I have real concerns regarding the funding 
for nondecennial activities contained in the Census Bureau 
funding in the House version of the Commerce-Justice-State 
Appropriations Act. The bill, as drafted, is $51 million below 
the administration's request for the census. These cuts could 
have a devastating effect on America's ability to produce basic 
economic and demographic information, information critical to 
Congress as it attempts to address the issues and policy 
choices of the 21st century.
    Inadequate funding will hinder our Nation's ability to 
track our dynamic economy, measures of business economic 
activity such as the gross domestic product, the index of 
industrial production, the Consumer Price Index, and the 
Producer Price Index, measures of population economic well-
being such as employment and unemployment, health insurance 
coverage, employment of the disabled, and child care.
    I would ask unanimous consent that we put into the record a 
fact sheet prepared by the Census which outlines these problems 
and what would happen with this lack of funding.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2446.005
    
    [GRAPHIC] [TIFF OMITTED] T2446.006
    
    [GRAPHIC] [TIFF OMITTED] T2446.007
    
    Mrs. Maloney. I was particularly distressed to hear that 
funding to fix the working conditions at Suitland with a 
building that seems prone to floods, asbestos, bad water and 
pigeon problems, that desperately needs renovation, was not 
included in the budget request. As I am sure the chairman will 
agree, the $5 million request for the American community survey 
is a truly serious problem if we are going to look for 
alternatives to the long form that was so controversial a few 
weeks ago.
    I ask, Mr. Chairman, that you join with me in expressing 
concern about this level of funding. I hope that these cuts can 
be rescinded before we get to a final bill and will urge my 
colleagues to do what they can to that end.
    In conclusion, while I get the feeling we are going to hear 
today, in excoriating detail, some of the problems that have 
risen in the census, as well as we should, no one can dispute 
that even a few months ago the idea that we would be almost 
done with nonresponse followup ahead of schedule is a truly 
amazing result. And not only the career staff but the thousands 
of Americans who worked in the census and cooperated with the 
census, who answered their Nation's call, should be commended.
    We have all heard the stories of hard work and dedication 
of the staff and even, regrettably, the stories of individual 
Americans who have in essence died in the line of duty, without 
whose efforts we could not be looking at such a good census.
    I would like to close by paying tribute to Ms. Dorothy 
Stewart, a 71-year-old census taker who died under tragic 
circumstances on June 10. My deepest condolences go to her 
family and friends, and I am sure that every Member of Congress 
joins me in expressing our sadness. Thank you very much. 
Director Prewitt, I look forward to your comments.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T2446.008

[GRAPHIC] [TIFF OMITTED] T2446.009

[GRAPHIC] [TIFF OMITTED] T2446.010

    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
let me first of all commend you for holding this hearing to 
examine the status of nonresponse followup and closeout 
procedures. I would also like to thank Dr. Prewitt for taking 
his time to come and share with us today regarding the progress 
of the 2000 census. It also provides me an opportunity to 
commend the Census Bureau's work thus far, including the 
leadership provided by the Secretary of Commerce who has gone 
to work directly for the next President of the United States.
    It is good news for America that 98 percent of the 
nonresponse followup workload has indeed been completed. As the 
Census Bureau is entering the final phases of its work, I am 
interested to hear how the Bureau is handling the closeout 
procedures for nonresponse followup and other current 
operations.
    In addition, I am also interested to hear challenges that 
are facing the Bureau in securing an accurate count of the 
population. As we all know, census data are crucial for 
America. Census data will be used to determine future funding 
for schools, hospitals, road construction and other programs 
that will affect local communities. In addition, this data will 
be used for congressional apportionment and to determine 
boundaries for State legislative and congressional districts.
    Thus, accurate census data is crucial for an equal and 
prosperous America. I have been close to the process, 
especially in Chicago, and I am concerned about Chicago. It is 
my understanding that we had been trailing behind the national 
average of census responses initially. However, I am pleased to 
note that with cooperation of the local census centers, the 
mayor of Chicago, and elected officials and community leaders, 
there has been a tremendous improvement and great change.
    However, even as that improvement has occurred, it has 
reinforced for me that it is impossible to get an accurate 
account without some numerical adjustment of the numbers. I 
have seen instances, Mr. Director, as you know, where every 
effort has been put forth in certain kinds of communities and 
certain kinds of neighborhoods, and yet after all is done, they 
are still individuals who either refused to complete the form 
or individuals who, no matter how many times you go looking for 
them, they cannot be found. These are the individuals who in 
many instances have the greatest need of the resources that 
would be allocated on the basis of the numbers.
    And so this effort has heightened for me the reality that 
unless there is adjustment, there can be no absolute fairness. 
We need to have a complete count of Chicago and all of America.
    There is still much work to be done, so I look forward to 
hearing the comments from Dr. Prewitt as we look at especially 
how we are making absolutely certain that those individuals who 
reside in areas of high poverty, areas with high immigrant 
populations, areas with large numbers of people who are 
homeless, helpless and hopeless, people who have become cynical 
and have been left out but need to be cut in, I will be 
particularly interested in the efforts that we are making to 
make sure that this population group is in fact counted.
    Again, I thank you, Mr. Chairman, and thank you, Dr. 
Prewitt, for coming and look forward to your testimony.
    Mr. Miller. Mr. Ford.
    Mr. Ford. Thank you, Mr. Chairman, and certainly to Mrs. 
Maloney and my colleague Mr. Davis and others. Welcome again, 
Director, and I apologize I was not here for your last visit.
    I am pleased to announce that we in Tennessee have been 
working hard across the State. Our regional office, Ms. Hardy 
and others, have cooperated with others across the State. I 
have worked with Democrats and Republicans. My colleague, Jimmy 
Duncan from the Knoxville area--he, I, and Mayor Victor Ash, 
both Republicans, worked closely together, along with members 
of their city council and school board and county 
commissioners.
    I was in Nashville with my colleague, Bob Clement, the 
mayor of that great city, Bill Purcell, and we have done things 
in my district in Memphis. We believe we are making progress 
and hope that our numbers will maintain or continue to be above 
the national average.
    We applaud the good work that you are doing. I mention that 
because the bipartisanship that pervades back in Tennessee, I 
would hope that it would pass off a little bit in Washington, 
and I would hope at some point that this committee would offer 
an apology to you, sir, for attacking your integrity and 
suggesting that perhaps there was--not casting aspersions, but 
suggesting that you had something to do with something that 
happened out in your San Diego office, which all of us have 
castigated and suggested that we disagree with, and would hope 
and have been assured that that matter has been taken care of.
    I look forward to hearing your comments this morning. I 
recognize that is the most look-intensive effort of the census 
count. I am pleased to hear that we are ahead of schedule and I 
am interested to hear what we can do on both sides of the aisle 
to assist you. Thank you for cooperating with this committee so 
much and coming before this committee at any and all times that 
you have been asked. Again, I look forward to hearing your 
testimony today and I yield back the balance of my time.
    Mr. Miller. I don't think anybody was questioning the 
integrity of the Director of the Census Bureau with respect to 
the California problem. There was a problem in California, but 
certainly the Director, I don't think it was ever suggested, 
was directly involved or involved with the issue. But there is 
a genuine concern in the General Accounting Office which is 
investigating it.
    Mr. Ford. I do know that passions were high that day and 
one could have construed from the news report and accounts that 
perhaps the Director--I read the Director's comments, and I 
wanted him to be assured that those of us on this side, and I 
think I speak for those on the other side as well, certainly 
did not mean for that to come across or for anyone to interpret 
it that way. Thank you, Mr. Chairman, for your comments.
    Mr. Miller. Director Prewitt, I think, will acknowledge 
that it was not a question of his integrity.
    I believe you want Mr. Thompson and Mr. Raines to be sworn 
in also if needed.
    [Witnesses sworn.]
    Mr. Miller. Let the record acknowledge that they have 
answered in the affirmative. Director Prewitt, you have an 
opening statement.

  STATEMENT OF KENNETH PREWITT, DIRECTOR, BUREAU OF THE CENSUS

    Mr. Prewitt. Yes, Mr. Chairman. I would like to preface 
with a comment about Congresswoman Maloney's suggestion that 
perhaps I could be appointed for life. My wife would agree to 
that if that would be a bipartisan resolution. So if you can 
get the chairman to agree to that, we will proceed.
    I do also want to thank you for showing the video because 
it does help explain why I believe, at least at this stage, we 
have been emboldened to label this a ``good census.'' A good 
census is not a perfect census. A good census does not mean 
that there are not loose ends, but nevertheless across the 
large system that has been the decennial census, we do feel 
quite confident about what has been accomplished.
    Hiring was a challenge. We hired and retained sufficient 
staff to complete every field operation thus far. Paying staff 
on time was a challenge. We have had a total of 920,000 
different individuals move through the census process in the 
last several months, and we have no major complaints about 
payroll, and that is a very complicated set of operations to 
make happen. Again we are using temporary employees to run a 
very complicated system for other temporary employees; 920,000 
people moved through our system in the last several months, and 
we are pleased that we had no major payroll or administrative 
problems.
    Obviously, completing every field operation on schedule was 
a challenge, but we have completed on or near schedule every 
one of our field operations. There was a risk of an 
unexpectedly low mail response rate, and we exceeded 
expectations.
    There were concerns about how well the Census Bureau data 
capture systems would work. Again we exceeded expectations. 
There was a question about whether the Census Bureau's programs 
to provide questionnaire assistance and multiple response 
options would work, and they did.
    As we entered the nonresponse followup operation 2 months 
ago, the Bureau faced its most serious operational challenges. 
Would we have enough staff and would they be highly productive? 
Would the public cooperate? The great success that the Census 
Bureau has had in its nonresponse followup operation is due to 
the dedication, enthusiasm and resourcefulness of the census 
workers and to the fact that the vast majority of Americans did 
step up and do their duty.
    Mr. Miller. I think we have a vote on the rule. We can 
complete your statement and then recess for a single vote.
    Mr. Prewitt. While we are pleased with progress thus far, 
there remain several operations that will improve what is 
already a good census. I have said numerous times that any 
national statistic, including the census count, is an estimate 
of the truth. The challenge is to get that estimate as close to 
the truth as possible; that is, there is a true count of the 
resident population of the United States on April 1, 2000. Were 
we to conclude the census with the completion of nonresponse 
followup, we would provide an estimate of that true count. It 
is unlikely that that estimate would be absolutely accurate; 
that is, identical with the true count. We believe that we can 
move that estimate closer to the truth. We will continue with 
three other major operations.
    The coverage edit followup does so by reconciling 
population count discrepancies. The coverage improvement 
followup operation enumerates housing units added to the 
address list too late to have been included in the initial 
nonresponse followup operation. We expect to be returning to 
nearly 10 percent of the housing units across the country. And 
the accuracy and coverage evaluation uses a dual system 
estimation in a procedure that measures the number of persons 
missed and the number erroneously included in any of the prior 
census operations.
    Although we are now moving into other field operations in 
our local census offices that have completed nonresponse 
followup, we are committed to fully applying our procedures to 
account for every remaining address in the local census 
offices. Daily production levels begin to decrease toward the 
end of the nonresponse followup. Some enumerators complete 
their easiest cases first, finish the work closer to their 
homes first, or believe that the quicker they finish their 
assignment, the sooner they will be out of work. In order to 
bring the operation to closure within the scheduled 10 weeks, 
we look at areas within each local office that are lagging and 
we implement the final attempt procedure. When 95 percent of 
the workload is completed, final attempt begins and the crew 
leader consolidates the remaining work and gives it to the most 
productive and dependable enumerators.
    In your letter of invitation you asked about serious 
problems. With one exception, an LCO in Florida, there are no 
serious problems we are aware of across our system. There 
obviously are a handful of cases where there are procedural 
deviations in nonresponse followup. We are reinterviewing in 
those instances. This happens when LCO management does not 
follow final attempt procedures as set forth. Our best estimate 
at this stage is not less than 50,000 nor more than 100,000 
cases will require reinterviewing. That is one-fourth of 1 
percent of the nonresponse followup workload, well within any 
reasonable tolerance levels of a complicated series of 
operations.
    The only serious case is Hialeah, FL, along with two other 
areas that used enumerators from Hialeah. We are reinterviewing 
20 percent of the nonresponse followup workload that was done 
by enumerators who, on instruction from the LCO manager, 
prematurely collected partial data on households.
    You asked how many Hialeahs there are out there, and 
obviously we are looking at that and we can talk about that. I 
should say that the Hialeah case was directly connected to the 
Elian Gonzalez issue, and there are not a lot of Elian 
Gonzalezes out there, but we were in a community that was in a 
state of uproar when we went into the field. We caught it, and 
have corrected it and can talk in detail about it if you wish. 
Of course, we are also reevaluating the rest of the work done 
in Hialeah. We think that we have found all 100 percent of the 
cases that were treated in that abbreviated fashion.
    I return to the earlier discussion about what is a good 
census. The third element of a good census involves openness, 
transparency and public scrutiny, which in turn can lead to 
public trust in the process. We believe this has been the most 
open and transparent census in history. Every detail has been 
and is being scrutinized, and we welcome that scrutiny.
    Indeed, as you know, last week I provided at a press 
conference and we did make public a document entitled 
``Accuracy and Coverage Evaluation'' that does set forth the 
rationale of the Census Bureau for a preliminary determination 
that corrected data can be produced in the timeframe and 
improve the census. At that same press conference, Commerce 
Department General Counsel Andrew Pincus described the proposed 
regulation to delegate authority.
    Just in conclusion, Mr. Chairman, you made reference to the 
fact that I was a political appointee. That is true. The 
Director of the Census Bureau is a Presidential appointee. So, 
Mr. Chairman, is the head of the National Science Foundation 
and the NASA. I don't believe, and I doubt that you do, that 
there is, therefore, a Republican versus a Democratic way that 
NSF funds nanotechnology or particle physics, or NIH conducts 
its scientific war on cancer or AIDS, or NASA designs the 
exploration of Mars. I don't think that because someone is a 
Presidential appointee that makes their activities, therefore, 
partisan. And at the Census Bureau we do not think that there 
is a way to conduct a Republican versus a Democratic census. We 
think that there are simply ways to get the estimate closer to 
the truth, and that is what we believe we are about. Thank you.
    Mr. Miller. Thank you, Director Prewitt.
    [The prepared statement of Mr. Prewitt follows:]

    [GRAPHIC] [TIFF OMITTED] T2446.011
    
    [GRAPHIC] [TIFF OMITTED] T2446.012
    
    [GRAPHIC] [TIFF OMITTED] T2446.013
    
    [GRAPHIC] [TIFF OMITTED] T2446.014
    
    [GRAPHIC] [TIFF OMITTED] T2446.015
    
    [GRAPHIC] [TIFF OMITTED] T2446.016
    
    [GRAPHIC] [TIFF OMITTED] T2446.017
    
    Mr. Miller. We will take a quick recess and go vote and 
come right back.
    [Recess.]
    Mr. Miller. We will proceed. Before I get started asking 
questions, let me respond to a couple of things.
    Director Prewitt, you mentioned you are a political 
appointee, and there is nothing wrong with that. The head of 
the National Institutes of Health is a political appointee, and 
Mrs. Maloney and I are politicians.
    The concern I have on the proposal which we will talk about 
more, is the need for independent outside review, and there is 
none that is going to be made or participating in this prior to 
the decision in February or March of next year. If you go to 
NIH, they have peer reviews and they don't do it all internal. 
This is strictly an internal decision process.
    Let me also respond to Congressman Davis and Congresswoman 
Maloney, the need to count the undercounted. We all agree that 
we want to do the very best job that we can, but we are a 
Nation of laws, and ultimately we know that this is going to be 
decided by the Supreme Court whether we use adjusted numbers. 
The sooner we get that decision out of the way, the better off 
everybody concerned is.
    I feel that the Supreme Court is going to say you cannot 
use adjusted numbers for redistricting purposes. The court is 
ultimately going to do that. To place your blind faith in 
adjusted numbers is unfortunate, because we have to do 
everything that we can to get the best count possible this 
first full enumeration. That is what I believe that the courts 
are going to say that we have to use for redistricting. That is 
the reason that I believe we put all of the extra resources 
into this.
    Let's count the undercounted African Americans and the 
rural poor, let's put those resources into that area because, 
as I say, and I have said a million times, ultimately the 
Supreme Court is going to decide it, and I feel fairly 
confident that the court is going to rule for redistricting and 
apportioning you are going to have to use the same sets of 
numbers, you can't have two sets of numbers.
    Who came up with the proposed regulation and did it 
originate at the Bureau, the Department of Commerce or 
elsewhere?
    Mr. Prewitt. I honestly don't know. It was first mentioned 
to me, the possibility of it, in a meeting that included myself 
and Andy Pincus, and Bill Barron I think was there. I presume 
it must have first come from the Commerce Department. As you 
recall in my last hearing, Mr. Chairman, I did rather strongly 
urge in principle that the authority over census operations be 
left at the Census Bureau.
    Just to continue with that, you talk about the level at 
which this decision should be made. The Census Bureau 
constantly releases data. We are going to release the 
apportionment numbers without outside review. We have to self-
audit the numbers. There is no other place in the country where 
we can say, are these apportionment numbers the right numbers? 
It is our job. We do the best we can. I don't understand the 
point about the self-audit. What else could an agency do except 
do its work and report it in an open and transparent fashion?
    Mr. Miller. When you have a new approach that Justice sets 
the numbers, you seek outside advice. You sought the National 
Academy of Sciences' advice and you had a 2-day meeting in 
February. There are distinguished statisticians that are highly 
respected people that disagree with this method of adjustment. 
There is no outside group looking at this, only after the fact, 
will there be. It is all strictly internal at this stage, and 
in my opinion a biased decision has already been made. That is, 
it hasn't been allowed for public scrutiny. The transparency 
that we talk about does not exist because no outside group will 
have the data to evaluate it until after the fact, correct?
    Mr. Prewitt. Is it your recommendation, then, that we don't 
release the apportionment counts until some outside agency 
reviews them?
    Mr. Miller. The Secretary of Commerce has to release that 
data. Do you go to an adjusted set of data which the courts 
have ruled is illegal for apportionment purposes? When they 
tried it in 1990 it was a failure. If Barbara Bryant had 
released them in February 1991, it would have been an 
embarrassment to this country. We would have automatically 
taken a congressional seat away from Pennsylvania and given it 
to another State. It took 2 years to figure out the problems of 
1990.
    It seems that any nonlawyer can read the proposal, and we 
will give you a copy of the CRS--and that is Congressional 
Research Service, which is a division of the Library of 
Congress. It is not a biased agency or a partisan organization. 
It is one that Members of Congress can ask for an unbiased 
opinion. But any nonlawyer can read this proposal and realize 
that a Cabinet member giving away his authority that is vested 
in him by Federal law is illegal.
    Who is the lawyer that drafted this? And if you don't know, 
perhaps John Thompson can let me know who made this decision, 
because I feel it is illegal.
    Mr. Prewitt. You are addressing questions to me that should 
be addressed to the Department of Commerce.
    Mr. Miller. Who is the lawyer?
    Mr. Prewitt. I would presume that it is the Department of 
Commerce lawyer. We did not produce this document. I would urge 
you to talk to Andy Pincus. He is the counsel to the Department 
of Commerce.
    Mr. Miller. The clearest example of how ridiculous this 
proposal is, is that the legal authority cited as the basis for 
this proposal refers to the Secretary's ability to delegate 
certain decisions. I am sure that he delegates decisions all of 
the time, but he is ultimately responsible for the decisions of 
all of those under him. Delegating authority is one thing. 
Divesting authority is another. It is difficult to believe a 
serious lawyer came up with this. This proposal is simply 
illegal on its face. This move is also blatantly political. 
Secretary Daley announced this proposal and 24 hours later he 
leaves to run the Gore campaign. It is clearly an attempt to 
try and subvert the will of the majority of Congress and put 
presumptive President Bush in a box.
    I hope the Bureau and the Commerce Department will come to 
their senses and withdraw this ridiculous proposal; otherwise 
it is sure to be defeated in the courts.
    In your written testimony you state that the third element 
of a good census involves openness, transparency and public 
scrutiny, which can lead to public trust in the process. You 
talk about the importance of public scrutiny, but everything 
about this proposed regulation, particularly the notion of an 
internal review panel, goes against the notion of public 
scrutiny. If you are serious about public scrutiny, why don't 
you allow for an independent scientific analysis of the process 
before your decision to release adjusted numbers to the States 
for redistricting?
    Mr. Prewitt. Mr. Chairman, we have statutory deadlines to 
meet and we will meet those with respect to the redistricting; 
and with respect to the apportionment number we will meet that 
deadline. The apportionment number is an adjusted number. There 
is a current apportionment number based upon nonresponse 
followup. We are now going to do a new operation called 
``CIFU.'' We will keep adjusting that number until we get to 
the day that----
    Mr. Miller. You are counting real people, not virtual 
people.
    Mr. Prewitt. We don't count virtual people. We count real 
people.
    Mr. Miller. That is what you do when you adjust.
    Mr. Prewitt. That is your language not ours.
    Mr. Miller. Statistical sampling, that is creating virtual 
people.
    Mr. Prewitt. The apportionment number includes imputed 
census records, right?
    Mr. Miller. I beg your pardon?
    Mr. Prewitt. The apportionment numbers includes imputed 
census records; that is, people that we have not talked to but 
we impute into the census records.
    Mr. Miller. But they are identifying an individual, a 
specific individual. When you do statistical adjustment, you 
are talking about a virtual person. To me there is a 
significant difference. You see, when you get a form in the 
mail and you fill out that form, those are real people. If you 
have to knock on the door and you talk to that person or using 
proxy data, you talk to a neighbor, yes, John Jones lived there 
on April 1, you are going to create a virtual person in 
sampling adjustment. You don't have a name to that person or 
identification. You are statistically going to create a person 
or eliminate a person. You are going to do both. That is the 
way that statistical adjustment works.
    Mr. Prewitt. In the apportionment number, there will be a 
certain number of census records which are put there through an 
imputation process. Those are not people with names. They are 
not people who filled out a form. They are people who our 
statistical processes lead us to believe by putting that census 
record in there, we have given the country a more accurate 
number. That is an adjusted number. It is not the basic count 
we had after nonresponse followup, because we do lots of work 
between now and then. That, we believe, gets that estimate of 
the count closer to the truth.
    Mr. Miller. It is like a homeless person that you don't 
have a name for but you see a physical body.
    Mr. Prewitt. I am talking about an imputed census file, not 
a homeless person without a name. It is certainly a process of 
trying to get the estimate of the count closer to the truth. We 
will do that. That is not done with any external scientific 
agency. That is done by the Census Bureau because that is our 
job.
    Mr. Miller. It is different from statistical adjustment 
where you use the virtual people.
    Mrs. Maloney.
    Mrs. Maloney. Mr. Chairman, I have only just seen the legal 
memo that you received from CRS, but even from a very brief 
reading, the CRS report that I read supports the proposed rule. 
On page 2 it says, ``Congress explicitly delegated to the 
Secretary of Commerce the authority and responsibility for a 
decision concerning the use of sampling and the reporting of 
tabulations for redistricting to the States. The Secretary may 
delegate such authority to the Director of the Census Bureau.''
    The memo goes on to suggest some changes to the language of 
the proposed rule, and that of course is why we have a comment 
period, and I am sure that the Secretary of Commerce would 
welcome your comments and consider your opinions. I would like 
to put that on the record.
    Director Prewitt, only because the chairman raised the 
issue, I would just like to ask you, what would happen if--
which I don't believe is going to happen--G.W. Bush is elected 
President, and he then overturns the rule, since he has not 
come out in support of correcting for the undercount. What 
would the Census Bureau do if that scenario happened?
    Mr. Prewitt. I believe the Census Bureau would release the 
numbers that we were instructed to release, if so instructed. 
My guess is--that is why this conversation about whether it is 
political or not political is hard to follow. We presume that 
this decision--at least the chairman presumes that this 
decision is going to be made by a Republican-appointed 
Secretary of Commerce and a Republican-appointed Census Bureau 
Director. It is going to take effect post change in 
administration.
    All the Census Bureau will do in February and March, as it 
pours through its data based on everything that it has 
accumulated about the census, is say what are the best set of 
numbers for Federal funding and redistricting and other 
statistical purposes.
    They will say to the Census Bureau Director, as I 
understand this delegation, ``Mr. Director, Mrs. Director, we 
believe these are the best set of numbers that we can produce 
from the decennial census process.'' The Director may say 
``fine, I take your advice, that is what I am going to do;'' or 
he or she can say ``no, I don't take your advice, make a 
different decision.'' If he or she is then overruled by his or 
her boss, I don't know what the status will be, but the Census 
Bureau itself simply does what it can do to produce the best 
set of numbers that it can produce in the timeframe available 
to it to meet its statutory deadlines and say these are the 
numbers.
    Mrs. Maloney. Only because the chairman has raised it, I 
would like to go into what is a political appointee. A 
political appointee is a Presidential appointee. How many 
people work at the Census Bureau?
    Mr. Prewitt. Well, as I say, right now it goes to half a 
million, but the permanent staff is more like 6,000 or 7,000.
    Mrs. Maloney. How many of those people out of those 6,000 
or 7,000 are Presidential appointees?
    Mr. Prewitt. There is one. And three are Schedule C 
appointees. I might say of those three, one does 
intergovernmental relations, one does public information, and 
one does legislative relationships. None of them have anything 
to do with any technical decisions made at the Census Bureau. I 
am the only person that connects to the technical end of the 
Census Bureau who is a political appointee.
    Mrs. Maloney. So everyone else is a career civil servant?
    Mr. Prewitt. Yes, as a matter of fact.
    Mrs. Maloney. So it doesn't matter who is President, they 
will be working there because they are career professionals?
    Mr. Prewitt. Well, the six people who are the senior people 
right behind me, for the most part manage the decennial have 
collectively been associated with the Census Bureau for many 
years. Their accumulated years at the Census Bureau total about 
150 years. If you add the 12 regional directors, they have 
about 340 years of experience. So the people actually managing 
the decennial census collectively have nearly 500 years of 
census experience.
    Mrs. Maloney. And they are professionals?
    Mr. Prewitt. Yes. Mr. Thompson, who has major authority, 
has been here for 25 years. He reports to someone else who has 
been here 32 years, who reports to somebody else who has been 
in the national statistical system, not the Census Bureau, for 
nearly 30 years.
    Mrs. Maloney. How were you appointed? Are you a friend of 
President Clinton's?
    Mr. Prewitt. No, I did not know him.
    Mrs. Maloney. Did you work on his campaign?
    Mr. Prewitt. No.
    Mrs. Maloney. Had you ever met him before you were 
appointed?
    Mr. Prewitt. No, ma'am.
    Mrs. Maloney. Are you even a member of a political club?
    Mr. Prewitt. No. I have never been a member of a political 
club. It is embarrassing to say these things. I have not been 
very active in politics. I have been an academic, and that is 
where I have spent my time.
    Mrs. Maloney. I consider politics and public service a very 
honorable career, especially when it is done wisely, honestly, 
and to help people. But your description doesn't sound like a 
politician, not even being a member--do you vote?
    Mr. Prewitt. I try to vote. I am a good citizen; I will put 
it that way.
    Mrs. Maloney. How were you appointed if you don't know the 
President? How did you get your job, this, ``political job''?
    Mr. Prewitt. I was called by someone in the Department of 
Commerce and asked if I could recommend any names, and these 
were the criteria that they gave to me. They said, we want a 
short list of names for the directorship who are reputable 
academics, scientists, who are not political. That actually was 
the criteria.
    Mrs. Maloney. So they were looking for scientists and 
academics?
    Mr. Prewitt. And I gave five names in the scientific 
community that I felt would be a first rate Director. They 
said, can we put your name on this list? I said no, I have 
never worked for the government and don't intend to work for 
the government. They said, would you think about it and call us 
back? I mentioned it to my wife and she thought I should do it. 
She said, it will keep me younger.
    Mrs. Maloney. It has given you more gray hair.
    Who called you from the Census Department; and, second, 
what was your job when they called you? What were you doing?
    Mr. Prewitt. Robert Shapiro made that call. He is and was 
Under Secretary. I was president of the Social Science Research 
Council based in New York City.
    Mrs. Maloney. So you were heading a scientific 
organization?
    Mr. Prewitt. Yes.
    Mrs. Maloney. Had you ever met Secretary Daley?
    Mr. Prewitt. No.
    Mrs. Maloney. Were you ever interviewed by Secretary Daley?
    Mr. Prewitt. At one point in the process, after I met Mr. 
Shapiro and Mr. Mallet, I spent 20 minutes with Secretary 
Daley, approximately.
    Mrs. Maloney. Have you ever met with the President since 
you have been appointed?
    Mr. Prewitt. I wouldn't call it a meeting, Congresswoman. 
Someone at the White House thought I should have a photo op, 
and we met in the hall for what I would say was 10 seconds. The 
President is--he is a busy man. I do not know for certain that 
he knew that he was talking to the Director of the Census 
Bureau.
    Mrs. Maloney. So you had a 10-seconds photo op, or a 10-
minute photo op?
    Mr. Prewitt. I think it was 10 seconds.
    Mrs. Maloney. So he is not visiting the Census Bureau or 
interacting in any way or whatever?
    Mr. Prewitt. No.
    Mrs. Maloney. It sounds to me that you are a professional 
academic scientist who has been appointed to a position of 
tremendous importance in our government.
    My time has expired, and I thank the Chairman.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much. Dr. Prewitt, I 
do believe that academicians can join political clubs. I think 
it is quite appropriate.
    Mr. Ford. He is from Chicago, I might add.
    Mr. Davis of Illinois. In Chicago everybody is political. 
You cannot live in Chicago and not be political.
    Let me ask you, Dr. Prewitt, since much has been made about 
the whole business of the delegation of authority--and this 
question is probably outside your realm--but if there was no 
Secretary of Commerce, who then would make the decisions about 
the operation of the Department?
    Mr. Prewitt. I think it would only be the Census Bureau 
Director.
    Mr. Davis of Illinois. I guess my point is, the Secretary 
really didn't have to make his determination before leaving, 
and yet a decision would have gotten made at some point anyway? 
That is kind of the way that I see that. And so it is difficult 
for me to suggest that that would have just simply been a 
political decision being made by the Secretary other than to 
provide as much assurance as one could provide that the 
technical decisions are in fact going to be made by technicians 
rather than politicians. But at any rate, you made a statement 
at one point relative to statistical corrected data, and 
suggested that that would be more accurate. What is statistical 
corrected data?
    Mr. Prewitt. In a census, Mr. Davis, what we actually 
believe is that you can't know the truth. You can only get an 
estimate of the truth. So what a census is is nothing more 
complicated than a series of operations that constantly try to 
get that estimate closer to what the truth is. That is why I 
say we currently have an estimate. We have 33,000 more 
households to reach in nonresponse followup, 319 in Memphis, by 
the way. But we are basically finished. We could produce a 
number now. We think we can improve that number by doing these 
next big operations. As I say, we are going back out in the 
field to some 8 or 10 million households. We will keep trying 
to improve that number to get it closer to what we think the 
truth is.
    One of those operations, only one out of a dozen or--well, 
counting three other small ones--is the accuracy and coverage 
evaluation. In that operation we do something which has been 
described as capture/recapture in wildlife studies. You take 
the census record and you go out and reexamine that household 
and then you match the records together. What that is, is in 
those households that have a set of demographic 
characteristics, inner-city, African Americans who rent their 
homes and who come from low response rate areas, we have a 
sample of those kinds of people in the country and we find out 
how many of them we missed. If our calculation is we missed 4 
percent of them, then where they live across the country, we 
will add 4 percent to the census records, not virtual people, 
census records. This is a statistical operation. It's not a 
kind of identification-of-people operation. That is all the 
correction is.
    It also turns out that we overcount. People send in more 
than one form and we identify that and we think that it is 
extremely important that when we do the corrected file, that 
those counts are appropriately reduced because we should not 
double-count the social groups in this country.
    Mr. Davis of Illinois. Do you believe as I do that if we 
were to take our best enumerators, the best people that we have 
got, and have them count until the end of the year, that there 
still would be some people that we would have missed?
    Mr. Prewitt. Regrettably, I have to agree with that. We 
have had enumerators met with guns and physically abused. We 
have had respondents who have sent us in $100, saying I 
understand that is the fine, and I will pay the fine and never 
answer this questionnaire. We have people here illegally who do 
not want to be counted.
    If you read the marvelous series in the New York Times 
about the race relations in the United States, you get some 
idea of the complexity of the population out there. There are 
some population groups who we can't find or will not cooperate 
with the census. So we are not--there is no process that could 
reach all 275 million, give or take, whatever the quality of 
our enumerators are.
    Mr. Davis of Illinois. Even though those individuals will 
not cooperate, do you feel that it would be unfair to them to 
not have them included in the ultimate count?
    Mr. Prewitt. Yes, sir; and wrong for the country. If we 
know that we are undercounting and overcounting--and we know 
that because we have been working on this for 50 years--then to 
produce a census that doesn't recognize that strikes us as 
failing our responsibilities to the country.
    Mr. Davis of Illinois. Again, let me just commend you and 
the Bureau for I think the outstanding work that you've done in 
even the corrected action that has been taken in some instances 
that may have started rather sluggish, but it is not always a 
matter of how you start, it is far more important how you 
finish. I think that we are going to finish well. Thank you 
very much.
    Mr. Miller. Let me initially make a comment in response to 
Mrs. Maloney. The statement that Secretary Daley released says 
the determination of the Director of the Census shall not be 
subject to review, reconsideration, or reversal by the 
Secretary of Commerce.
    The law doesn't give him permission to do that. I know that 
we are not lawyers here, I don't know if Mrs. Maloney is, but 
that is what the real question is. The ultimate responsibility 
has to be there. You need to put the responsibility right at 
the level where it belongs.
    There is nothing wrong with being a political appointee. 
You have a distinguished record, just as Dr. Varmus, who headed 
NIH for so many years. It is never a question of whether you 
are political, but as political, you end up in--basically the 
President or whoever has that power, the Secretary of Commerce 
or his assistant, is going to select people for the job that is 
going to go along with their beliefs and positions. The concern 
is that there is nothing wrong, that is the way that the system 
works.
    I don't think that you were contacted because you are a 
loyal Republican. I don't think that you give financial 
contributions to the Republican Party. Do you give political 
contributions, or have you?
    Mr. Prewitt. Yes, I have.
    Mr. Miller. To the Republicans?
    Mr. Prewitt. To the best candidate that I can find.
    Mr. Miller. Any Republicans?
    Mr. Prewitt. Just to make sure that the record is correct, 
I have certainly not given any political contributions since I 
have had this job.
    Mr. Miller. But previously you have made contributions to 
the Democratic Party, and there is nothing wrong with that.
    Mr. Prewitt. That's correct.
    Mr. Miller. You stated last week in a press conference that 
there is no bonus system for census employees, and you wanted 
to dispel the rumor that there was one. Is there no bonus 
system for census employees?
    Mr. Prewitt. There is no bonus system connected to the--the 
reference that I was making was a bonus system for enumerators 
or crew leaders who completed their decennial work on time.
    The Census Bureau has incentive and award programs across 
its system, and has had that for years and years. But the 
particular reference in the press that I saw had to do with a 
bonus system for completing work in, I think the Los Angeles 
region. We are not allowed by law, for example, to give any 
kind of program or payment to any temporary employees.
    Mr. Miller. You have seen this recommendation for 
recognition, and you have a Special Achievement Award, Special 
Act of Service Award, Cash in a Flash Award, On the Spot Award, 
Time Off Award. I think bonuses is what makes this system--we 
need to have incentives. I am not opposed to them, but the 
bottom line is that there are bonuses. You may want to call it 
another name, but they are bonuses for getting the job done 
right. Isn't that right?
    Mr. Prewitt. We call them incentive programs.
    Mr. Miller. That is a bonus?
    Mr. Prewitt. Surely.
    Mr. Miller. We are getting into this Bill Clinton issue, 
what is the definition of the word ``is.''
    We are rewarding people, and again there is nothing wrong 
with that, but the concern we have is to make sure that we are 
making the proper balance between timeliness and quality. We 
don't want to lose any quality.
    Let me go to the question of proxy data. Enumerators 
attempt six contacts and if they can't speak to someone in a 
household, they go to third-party source such as a neighbor or 
postal carrier. This is proxy.
    During the 1998 dress rehearsals, the Census Bureau found 
very high amounts of proxy in the nonresponse universe: 20 
percent in Sacramento, 16.4 percent in South Carolina; 16.5 
percent in Menomonie. The Census Bureau concluded the high 
amount of proxies was a result of census workers not following 
procedures in the field. This directly affects the quality of 
the data. How can you or I be confident that the Census Bureau 
remedied the problem when you are not measuring proxy data at 
the local census office level?
    Mr. Prewitt. We certainly will use proxy data in the 
decennial census.
    Mr. Miller. The question is the level of it. In the dress 
rehearsal, it was overused in some areas.
    Mr. Prewitt. Proxy data are better than no data. They 
simply are. We do everything that we can to get a population 
count from every housing unit in the country. If we get that 
from a knowledgeable neighbor or building manager, we believe 
that is far superior to leaving that census file out of the 
census record. So we are not defensive about proxy data at all. 
We would prefer to get the response from the respondent. We 
would prefer that everyone mail their form back in. They don't. 
We would prefer when we knocked on the door, they answered the 
door and said ``certainly.''
    Mr. Miller. Proxy data is necessary and it is better than 
no data. The question is when you get to obtain it. Now that we 
have the time that we are ahead of schedule, we should be able 
to keep going back to count the people that Mr. Davis and 
others say we want counted. I am saying do everything that we 
can to get them counted because they are real people, because 
the idea of adjustment, it is going to be thrown out probably 
and so let's not cut corners now.
    Mr. Prewitt. Yes, sir. We have no trouble with that 
recommendation and we are not cutting corners, of course.
    Mr. Miller. But you are not measuring proxy data at the 
local census office--or what level or percentage are you?
    Mr. Prewitt. Every questionnaire that we produce has a set 
of tags on it. We will report that measure to the country when 
we have all of the data.
    Mr. Miller. Wouldn't it be important to measure the success 
of the local census office?
    Mr. Prewitt. We use a number of other indicators that we 
think are better.
    Mr. Miller. Mr. Ford is back. We will go to Mr. Ford.
    Mr. Ford. Thank you, Mr. Chairman. I was just trying to 
figure out where you were going with the line of questioning. 
Perhaps, the bonus piece, what point were you trying to make 
with that?
    Mr. Miller. My concern is that we are rushing out of the 
field too quickly and not getting the best-quality data. I 
think bonuses are fine. The question is quality. I say stay in 
the field and make sure that we get everybody counted in the 
hardest-to-count districts rather than jumping to proxy data. 
That is all I am saying. We have to make sure that we are not 
overusing proxy data.
    Mr. Ford. My second question would be with regard to the 
politics of all of this. The concern with this authority being 
vested with the--with Director Prewitt--what is the concern? It 
is a concern, say, for instance, hypothetically, Mr. Bush is 
the next President and is there some concern that his Commerce 
Secretary won't have the authority to make this decision. That 
is what I am confused with. We have reached a very, very low 
point here if we can't take people at their word. The Director 
has made clear that his purpose as Director is not to advance 
some Democratic agenda but to try to get an accurate count. I 
am just curious what we are concerned about. Maybe I am missing 
it.
    Mr. Miller. There are two comments. First of all you can 
delegate authority, but to divest authority is illegal. Going 
beyond that, the question is not using independent outside 
advice. At Los Alamos we did----
    Mr. Ford. This is not Los Alamos, and that is an explosive 
term right now. I agree with Senator Byrd and others who have 
criticized my friend Bill Richardson.
    Mr. Miller. If they want to bring in outside experts, the 
National Academy of Sciences, which is a respected institute, 
to look at the data and give advice, that is not allowed under 
this regulation. This regulation says only the people within 
the Bureau inside can make the decision. I think you should 
have outside experts give some advice. That is not provided in 
this regulation until after the fact it is allowed. That is my 
concern, is that the decision process is trying to be set in 
concrete now. I am not sure that this is the right decision 
process.
    Mr. Ford. So it is more that you want to ensure that we get 
as many voices----
    Mr. Miller. They are setting a rule that only the people 
that design the plan will decide the answer. In corporations, 
you bring in consultants or auditors. The National Institutes 
of Health uses peer review. They don't just have inside people 
making the decision. The proposed regulation is all inside 
people only, and nobody outside.
    Mr. Ford. Is it a regulation that we can address and 
perhaps amend?
    Mr. Miller. Well, it is a regulation that they are going to 
impose at the Commerce Department. We will have a chance for 
comment. They are going over Congress's head.
    Mr. Ford. I would rather get to the issue as opposed to 
talking about definitions of ``is.'' This is not Los Alamos and 
this is not an impeachment inquiry here. What is your attitude 
toward the thoughts and the concerns that the Chairman has 
expressed? I do know that the National Academy of Sciences 
suggested that sampling would not be a good idea.
    Mrs. Maloney. They supported it.
    Mr. Prewitt. Yes.
    Mr. Miller. They support the concept, but they have not 
reviewed the plan. They will review it after the fact.
    Mr. Ford. I only raise that point to say that I understand 
that it may support your point at one time, and I wonder if 
they would come back and support something that the 
administration--since we all believe that politics plays such 
an excessive role in all of this. Notwithstanding that, what do 
you think about the thoughts that the chairman has said?
    Mr. Prewitt. First, the census design has been subjected to 
a great deal of outside advice, scrutiny, and consultation with 
the statistical community for about 8 years. Four different 
committees of the National Academy of Science have been 
reviewing our work. This is not something that is being done by 
some group of insiders. This is being done with enormous 
consultation across the country.
    There are some very good statisticians, largely at the 
University of California, Berkeley, who have different views. 
They incidentally, Mr. Miller, do believe in adjusting but they 
would use a raking method which is a different method from 
dual-system estimation. We believe that a raking method is less 
powerful and statistically robust than dual-system estimation; 
but they also understand that there is an undercount, and the 
way to fix it is to use a different adjustment method.
    So we are arguing about two different kinds of adjustment 
methods.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2446.018
    
    [GRAPHIC] [TIFF OMITTED] T2446.019
    
    Mr. Prewitt. Specifically, Mr. Ford, to your comment, in 
1980 the Director of the Census was Vince Barabba. He served 
under President Nixon and left when President Carter came in. 
The decennial census was not in good shape in 1980. He was a 
Republican, brought back by a Democratic administration, to run 
the decennial census. He made the decision with internal advice 
about whether to release the numbers or not. He decided against 
it because they were not robust enough.
    When I was considering taking this job, I talked to Mr. 
Barabba, and I said, ``What advice do you give me?'' He said 
the most important advice is get every possible decision out of 
the Commerce Department and back to the Census Bureau where it 
belongs, and that is a Republican Census Director giving me 
advice.
    I then talked to Barbara Bryant and said, ``What advice do 
you have for me?'' She said, get every decision that you can 
get back to the Census Bureau; these decisions are better made 
at the Census Bureau. The statistical community will very 
substantially support this decision because they believe the 
kind of people who should be making this decision are 
statisticians and technicians. That is what they believe. If 
you want to draw a sample of the statistical community and ask 
their judgment, they will all agree this is the right thing to 
do. If it turns out to be illegal, it won't happen.
    This is not a Census Bureau decision, but it is certainly 
one that I strongly support. And it is apolitical. I don't know 
who is going to be the Census Director when this decision is 
made. I leave with this administration. It is not about me. It 
is about the proper way to organize what is a scientific 
effort. It is not a political effort. It is a scientific 
effort.
    Mr. Ford. My concern, Mr. Chairman, I understand the need 
to have competition in terms of ideas to generate more ideas 
and more thoughts and more voices on this and more opinions, 
but what is to stop them from being influenced by politics? We 
treat it as if it is a dirty word in some ways, and then we 
suggest even outside that we don't want any of it, but we 
assume the worst in people.
    Whether it is the National Academy of Sciences, are we 
going to check that the director or president of that 
organization, his or her history of political contributions and 
his or her deputy, and then look at--at some point--when does 
it stop? When do we just take people at their word? That 
Director Prewitt, as much we may differ on some issues, we are 
all interested in an accurate count.
    There is no doubt that there are implications to an 
accurate count. In some areas it is suggested when you are able 
to count more minorities--and as an African American Member of 
Congress, there is a belief that African Americans vote 
Democratic more than Republican, and numbers will probably bear 
that out, but I don't know why that should stop us from wanting 
an accurate count, just as if we suggest that perhaps white men 
vote more Republican and Democrat. I am not urging white men in 
my State not to be counted so I can have more African Americans 
or women to be counted. I want all folks to be counted, as you 
do, too, Mr. Chairman.
    When does it stop? I can appreciate the recommendations 
that we are going to make, and I would recommend that we 
perhaps invite Mr. Prewitt's two predecessors and get their 
thoughts as well. I believe that they told you that, but for 
the sake of the committee and the record, perhaps we ought to 
provide your predecessors an opportunity to make those 
statements public.
    I know that my time has run out, and I yield back.
    Mr. Miller. Mr. Souder. May I have 30 seconds of your time?
    Mr. Souder. I am happy to yield.
    Mr. Miller. This Congress and the previous Congresses have 
given all of the financial resources needed to do the census. I 
don't think that anyone disputes that. $6 billion is involved 
here. We need to do everything that we can with all of the 
resources we have to get the very best count.
    I am proud that I have worked hard through my position on 
the Appropriations Subcommittee to make sure that money was 
there, and this goes back to Speaker Gingrich and Hastert, who 
have provided the financial resources. We need to work together 
on that common goal.
    I yield back the balance of my time.
    Mr. Souder. I thank the chairman. I apologize for missing 
your statement, and I will try to read it in between here and--
I have had kind of an erratic attendance at this subcommittee, 
but I was very involved earlier with Speaker Hastert, and I was 
involved in the earlier stages, and we have been through a lot 
of this.
    I share the concern, both a legal-technical concern about 
the transfer of authority, and I don't mean to imply direct 
questions about the integrity of you as Director or whoever the 
new Director is, but I think--and the reason that I move over 
to this side, usually the Republicans are on that side, it was 
making Mr. Ford very uncomfortable. He is not used to turning 
to his left to find me, and he couldn't sort me out.
    Mr. Ford. He wasn't used to being on my left either.
    Mr. Souder. I think that everybody, regardless of their 
political background, tries to do the best they can once they 
are given the responsibility in government. But you still come 
in with biases, no matter who are you, whether it is me or you 
in a given position.
    Part of my immediate reaction to a decision like this, and 
having been on this oversight committee since I came to 
Congress and having dealt with this in agency after agency and 
wanting to assume the best about every individual and every 
decision, but it is no accident that when you, in the language, 
move it to the Department and say this is a professional 
decision, that this Department position is still a Schedule C, 
it is a political position and it shouldn't be--while you are 
more knowledgeable about the issue than the Secretary of 
Commerce, you are still a political appointee.
    And one concern beyond the legal concern is an impression 
given to the general public that somehow if the Director of the 
Census makes a statement as opposed to the Congress, that one 
is professional and one is political, when in fact we are all 
politicians here--you are a representative of a political 
appointee of a politically elected official, and you are in the 
political arm, with a staff underneath you that is a mix, but 
predominantly not politically appointed. At the same time, we 
all know, particularly those of us who have been involved in 
politics a long time, how we get layers of bureaucracy and 
staffing, and how you get promoted and good assignments 
internally, and people who share ideas are going to have their 
most trusted advisers come with shared ideas. And we have a 
major philosophical divide as to the ultimate value in how much 
we can trust estimating.
    I am sitting in a situation and I have been appalled at the 
unwillingness of people to confront directly the difficulty of 
what we are facing here, and that we all know it, and we ought 
to acknowledge it and try to address this gap.
    It is a range of things, but it is not easy to count 
illegal immigrants, and it is not easy to count people who are 
homeless because they move around. They wouldn't be homeless if 
they were organized and were willing to be counted. Drug 
dealers do not want to be counted. People who are on the lam 
don't want to be counted. Some of my more paranoid right-wing 
friends don't want to be counted. There are parts of Montana, 
and I don't mean to isolate Montana, but that is the news media 
characterization, and we have parts of my district--I had 
somebody come up to me at a parade who was worried that the ATF 
was going to come after him, and he has two guns pointed and he 
is in a trailer; and I am thinking, boy, I hope some census 
worker doesn't knock on his door.
    We have all kinds of people who don't want to be counted. 
We have to figure out how to count them to be fair to 
everybody. When you have variations in some cities between 
25,000 in the homeless population and 125,000, that 
differential in Los Angeles alone wipes out four of my counties 
if we estimate at the high as opposed to the low. It is not a 
racial argument. It is are my people going to be cheated if 
somebody errs on the side of estimating high as opposed to 
estimating low.
    I know that we have supposedly 125 crack houses in Fort 
Wayne that we have--a lot of those have been torn down. It 
doesn't mean that somebody is in them. They move from night to 
night. That becomes difficult to estimate. And what many of us 
want to say is that every exhaustive possibility ought to be 
done before any estimating is done. And that even in the bonus 
system, in a bonus system the encouragement should be for 
exhaustive approaches, not for speed. Assembly line by 
stressing speed cannot get as much qualitative level and then 
we can jump to the estimating faster. A possible check in a 
system like that is a penalty.
    If the estimating in your area shows a bigger gap than 
somebody in a similar neighborhood, then maybe you should lose 
your bonuses that you got earlier by going too fast. Private 
business may give commissions and bonuses, but there are 
certain things that will suggest the inefficiency of census 
workers. That might discourage different activities, too.
    I am just suggesting that ultimately we all know there is 
going to have to be some supplement and it is a question of how 
aggressive it is going to be and whether or not the tilt here--
and where our concern is, is that by transferring this to your 
authority, it looks like an attempt of the administration to 
wash their hands and say we are going to not be political, and 
because we are a little ahead, we are going to kick this to 
statistics, a form of sophisticated guessing.
    Assuming you have dual tracking and different things, it is 
going to be fairly accurate, not necessarily to the sub-track 
level, which is important for local things, and maybe we have 
ways that we can make sure that everybody understands that.
    Another thing, it is kind of ironic at this particular 
point in time, the Secretary of Commerce just went over to be 
the manager of a Presidential candidate. Isn't that convenient, 
because it makes it look like he removed--the time was not 
opportune. If you are on the other side of the spectrum, this 
looks like the Presidential candidate doesn't want to be 
associated in controversial and swing areas with the decision, 
and he tried to make it look like he was taking it out and 
away, that it didn't matter that Mr. Daley was leaving and 
kicking it down.
    Yes, sometimes we are a little paranoid on our side, but 
some of that paranoia has been fairly justified, not always, 
but sometimes. And that is why many of us are upset with this, 
not necessarily that we are not going to go to statistical 
sampling and you are going to bring a little more trust to the 
statistics than some of us would necessarily have, and we want 
to make sure that everything else has been exhausted first 
because possibly political control of Congress is dependent on 
this; variations of whether my district gets grants that may 
depend on this, controls of city councils may depend on this.
    This is a weighty political decision, and we need to make 
sure that both sides are represented fairly and accurate. I 
would appreciate any comments that you would have.
    Mr. Prewitt. I would like to address the generic level of 
your comments.
    Mr. Souder, I must say I would be very, very saddened if 
this delegation of authority issue became yet a part of--
deepened the sort of concern among Members of Congress that 
this is a politically charged census.
    I would much rather not have a delegation than have that. I 
have spent a lot of time--I came to Washington, quite honestly, 
not because I was politically active and so forth, I came to 
Washington because I had observed the fact that the Census 
Bureau had been characterized as perhaps being able to 
predesign a census with a known partisan outcome.
    Actually that is a false charge. We would not know how to 
do that. If you think, it means 3 years ago we were making 
design decisions that would affect redistricting 5 years later, 
and redistricting where, and for what purpose, in which States. 
The intelligence that one would need to bring to bear on those 
technical decisions that you were making 3 years ago for an 
impact 5 years later, we don't have it. We are not experts in 
redistricting. We don't pay any attention to which Governor of 
which State has Republican or Democratic majorities. We simply 
don't. We wouldn't know how to go about doing that. I don't 
think anyone in this country is smart enough to actually 
anticipate the partisan impact back when those design decisions 
are made.
    And so I felt very strongly that--and let me say just a 
word or two why I feel so strongly. I don't think that you can 
have a healthy democracy without a healthy number system. The 
American people cannot hold political leaders to account 
without social indicators. When we debate whether education is 
improving or not, when we debate whether the quality of health 
is improving or not, and when we worry about whether inflation 
is being checked or not, we are using statistical indicators of 
those phenomenon.
    And when political leaders are thrown out of office, it is 
often because the American voting public is saying we don't 
like the way things are going. And when they say that, they are 
looking at statistical data. Democracy requires a very sound 
national number system, and I think if the word gets out and it 
gets to be believed that the numbers could be politically 
tampered or manipulated, you begin to erode confidence in those 
numbers and that is a dangerous place to be for society. I feel 
very strongly about that.
    I have tried to conduct myself with the Census Bureau staff 
in such a way that we could lessen that charge; and therefore 
if this particular thing, this delegation becomes evidence, if 
you would, that somehow this is one more attempt to be 
political, I wish it would go away. I feel so strongly about 
trying to take this out of politics that I don't want to do 
anything that leaves that impression.
    This wasn't my decision. This was a Department of Commerce 
decision, and you would have to--but I just want you to believe 
that I think nothing is more dangerous than to believe that the 
national number system is subjected to political manipulation 
or uses.
    Mr. Miller. Let's complete the first round. We will go to 
Mr. Davis, and then Mrs. Maloney will continue the second 
round. We are glad to have Mr. Davis with us today.
    Mr. Davis of Virginia. I had a bill in another committee 
being marked, and I apologize for being late. My recollection 
is that if we had used adjusted numbers after the 1990 census, 
we would have been working as a Nation on a foundation of 
numbers that contained huge errors, 45 percent errors. That is 
huge errors.
    Mr. Prewitt. That is incorrect, sir.
    Mr. Davis of Virginia. What would it have been?
    Mr. Prewitt. This country for the last 7 years has been 
making all of its major economic decisions, such as its 
inflation rate----
    Mr. Davis of Virginia. I am aware of that, but what error?
    Mr. Prewitt [continuing]. On the corrected numbers. The 
Bureau of Labor Statistics believes if it had not been using 
these corrected numbers, it would have mis-estimated employment 
rates in this country by more than a million people. The 
corrected numbers are better than the uncorrected numbers.
    Mr. Miller. The Census Bureau does not use it for any 
intercennial estimates. They do not use the adjusted numbers. 
My understanding is for the BLS, they only use them for large 
population areas, and not for all States. I yield back.
    Mr. Davis of Virginia. I appreciate the clarification. Our 
paranoia here when we see the head of the Commerce Department 
who was overseeing the census, and has now made this delegation 
right before moving over to run the national campaign, you can 
understand why we are----
    Mr. Ford. Would the gentleman yield? You are the chairman 
of the National Republican Campaign Committee, so I would not 
dare suggest that your questioning is motivated at all by the 
fact that you are looking to maintain a majority. I have great 
respect for you, but to suggest that----
    Mr. Davis of Virginia. Reclaiming my time, I have nothing 
to do with the count. I have zero to do with the count over 
there. I represent a district out in Fairfax County. Last time, 
under their adjusted figures, we would have lost our percent of 
the pie in Virginia. So I represent----
    Mr. Ford. Mr. Daley said nothing----
    Mr. Davis of Virginia. Reclaiming my time, I read today in 
Congress Daily that on Monday the Justice Department asked the 
Federal court to postpone its consideration of Virginia law, a 
Virginia plan that was passed by our State senate and house, 
and in fact passed our State house with a bipartisan vote, to 
use an actual head count for redrawing legislative districts 
next year. Were you or any employees of the Census Bureau 
consulted on the Justice Department's decisions?
    Mr. Prewitt. Absolutely not. We don't pay any attention to 
those things, sir.
    Mr. Davis of Virginia. Can you think why anyone would want 
to postpone a decision like that?
    Mr. Prewitt. There are legal decisions going on all over 
the country. I don't pay any attention to those. My job is to 
produce the numbers. I can't begin to give you an explanation 
for those decisions.
    Mr. Davis of Virginia. Can you understand why anyone would 
want to postpone a decision like that?
    Mr. Prewitt. I am not even knowledgeable about the question 
that you are asking me.
    Mr. Davis of Virginia. Let me explain it to you and maybe 
you can give me an answer. Virginia basically said that they 
are going to use the actual enumeration for purposes of drawing 
their legislative districts within the State. They passed a law 
that was signed by the Governor--duly elected officials 
sponsored this--taken to court to try to get an early 
clarification, because when it comes to drawing the lines, you 
would like to know what is acceptable and what may not be 
acceptable, and it sets a playing field. Now the Justice 
Department has intervened and said they want to postpone this. 
Can you think of any reason why anyone would want to postpone 
this?
    Mr. Prewitt. No. I am not a lawyer. I don't follow these 
things at all.
    What the Census Bureau's position has been is that we are 
going to produce the best numbers we can. Their use is up to 
the States. We don't dictate what States use what numbers. That 
is not our job. We are simply producing them.
    Mr. Davis of Virginia. If a State wants to get a 
clarification of what is legal, you don't have a problem with 
that or see why it should be postponed?
    Mr. Prewitt. As I say, you have told me more about this 
than I had any pre-knowledge about. It has nothing to do with 
the Census Bureau. It has to do with the Department of Justice.
    Mr. Davis of Virginia. It all has to do with apportionment, 
which your numbers--with two different numbers, obviously you 
get two different apportionment resolutions.
    Mr. Prewitt. You mean redistricting?
    Mr. Davis of Virginia. It has been used in the court cases, 
I think it has been used interchangeably, but there is an 
argument that seems to think that there is a difference between 
apportionment and redistricting. You can understand why they 
want to get an early decision.
    Mr. Prewitt. Certainly.
    Mr. Davis of Virginia. Rather than drag this out and 
forcing it into next year, the earlier a State could find out 
what could be acceptable and maybe bullet-proof from a legal 
attack, that would be logical it seems to me.
    Mr. Prewitt. I am not disputing that so much as I am 
uninformed about it.
    Mr. Souder. Would the gentleman yield?
    Mr. Davis of Virginia. I would be happy to.
    Mr. Souder. You know you are in a politically sensitive 
position. We have had hearings for years in advance about the 
split between whether we have an accurate enumerated count 
versus an estimated count. You know, I assume, that some idea 
of the--why there is such a big battle over these figures. 
Years ago, legislatures--States don't do counts, so when the 
Supreme Court ruled that rural areas were overestimated versus 
urban areas, the only numbers that they have to go to are you. 
States don't do counts. The Constitution gives it to you. You 
have some concept of that history.
    Mr. Prewitt. Of course.
    Mr. Souder. Therefore, you would understand that even 
though they are not required to use these numbers, there are no 
other numbers. The courts, when they overrule them, would use 
your numbers. So when you say that you don't have an awareness 
of how that is done, I understand that you are not necessarily 
following it directly, but you have a general idea?
    Mr. Prewitt. Yes, sir.
    Mr. Davis of Virginia. Also, these are legal matters that 
are affected by decisions that you make. You put out two 
numbers, what do you expect legislatures to do? I want to 
clarify my question again. So no one, no one at the Census 
Bureau to your knowledge was consulted by the Justice 
Department on this?
    Mr. Prewitt. No, sir, not to my knowledge; and I don't know 
who it would have been.
    Mr. Miller. Mr. Davis, would you yield?
    Ultimately this is going to be decided by the Supreme 
Court. They are going to rule whether we use adjusted numbers 
for redistricting. You don't have an opinion?
    Mr. Prewitt. I really don't know.
    Mr. Miller. You don't think any courts will rule on this 
decision?
    Mr. Prewitt. I think courts will rule, yes.
    Mr. Miller. Wouldn't it be to everybody's advantage to have 
the courts rule sooner than later?
    Mr. Prewitt. As I have said in testimony, Mr. Chairman, I 
was very pleased with the timeliness of the previous Supreme 
Court decision. That helped us in planning this census.
    Mr. Miller. So this question of using adjusted numbers for 
redistricting, the sooner that the courts rule, the better off 
the States will be?
    Mr. Prewitt. The difference in the two decisions is that 
this decision has nothing to do with our operations. The 
previous Supreme Court decision had enormous consequences for 
our operation. That is why its timeliness was better, and a 
year earlier would have been even better. But this has no 
implications for what we are now doing.
    Mr. Miller. It has huge implications to States making 
redistricting decisions. My knowledge of what I read in 
Congress Daily, I am amazed that the Justice Department would 
not have put off that decision, and that is what they are 
doing. I am glad that you are not involved.
    Mr. Davis of Virginia. I am glad that the Census Bureau 
isn't. I am appalled by the Justice Department's decision, but 
I think it has been very political in every other aspect of how 
it has conducted itself. And I think this case shows that once 
again, in an election year, it is not going to deviate from 
that practice.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. I think many of your 
colleagues raise some important points. I believe we should 
invite the Justice Department to come to the next hearing and 
explain their point of view. We should have them tell us and 
explain why they feel the way that they do. I think that is a 
legitimate point that has been raised, and I look forward to 
that hearing only because some of my friends and colleagues on 
the other side of the aisle seem to be disturbed, and they keep 
raising the point that Secretary Daley will be going over to 
join Vice President Gore's campaign.
    I want to make a historical note in here that Mosbacher, 
the Secretary of Commerce under former President Bush, he 
overruled the Census Director, the professional, Dr. Barbara 
Bryant, who ruled that adjusted numbers with modern scientific 
methods were far more accurate and that those should be the 
numbers used. Mosbacher overruled her professional scientific 
decision, then resigned and went over and ran the Bush campaign 
in 1992.
    One point that was raised--quite frankly, I didn't realize 
until you mentioned it, Dr. Prewitt, is that adjusted numbers 
are being used now by professional statistical organizations 
because they are more accurate.
    I would like you to respond now, and in greater detail in 
writing, which ones are using adjusted numbers because they are 
more accurate. But before that, I want to make another point to 
one of my dear friends and colleagues who kept raising the 
point that many people don't want to be counted. The 
Constitution, and all of our directions are that we are 
supposed to count everyone, whether they want to be counted or 
not.
    In my district in New York, the local census office is 
having a very difficult time because they can't get past the 
doormen, and my office is calling up all of the managers of all 
of these buildings and helping the Census Bureau get into 
buildings that they have been blocked from going into. But one 
of the biggest areas that is undercounted, and actually it is 
the reason that I first got involved in the census, because one 
of the areas that I work very deeply in is child care, day-
care, and many advocates were coming to me and talking about 
the great number of children who were missed and undercounted 
in 1990. I believe it was really the largest area of the 
undercount. That, as we know, affects all types of planning and 
funding formulas.
    I would like you to comment on those two points.
    Mr. Prewitt. With respect to the undercount of the 
children, the odd thing is these are census forms that come 
back in, so it is not as if we have not exhausted our 
procedures and gone to that household and gotten the census 
form. But we subsequently learn that children get left off of 
forms for all kinds of reasons. One of the major things that 
the corrected numbers do is to locate the percentage of kids 
that get left off forms and add that number back to the census. 
Nothing more complicated than that.
    Mrs. Maloney. I would like to add, in 1990, 70 percent of 
the people missed in the census were missed in households that 
were counted, and many of these were missed on forms, as you 
pointed out, that were returned by mail. And because of the 
tremendous amount of work that the Census Bureau has done, and 
the local governments, we do have a tremendous improvement in 
the address list, and it is likely that the percentage will be 
higher in 2000. And will spending more time in the field doing 
the nonresponse followup find these people?
    Mr. Prewitt. Well, we designed our processes under 
scrutiny, of course, of this Congress and the GAO to be prudent 
with taxpayer dollars. We could continue to knock on doors 
forever. We don't think that would improve the count 
materially. That is six attempts. Indeed, we have cases where 
we have gone back 12 times. That is more than was expected to 
happen. We have very committed enumerators out there.
    We do think that at a certain point you get data 
deterioration as you move away from April 1, and you get memory 
and mover problems. So it is our statistical judgment that the 
sooner we can get the data, the better. So it is not a rushed 
census, it is a higher-quality census if we get the data closer 
to April 1.
    Continuing to knock on doors, we have been met at the door 
by people with guns, as Mr. Souder knows. We have had physical 
and verbal abuse. We don't send people back 12 times when 
somebody says, ``You come back, next time it will get worse.'' 
We have to worry about the safety of the enumeration staff. 
Going back for a 12th time will spend a lot more money, and 
then you will have a different set of hearings saying, why did 
you waste all of that money going back and back?
    Mrs. Maloney. GAO produced a report that confirmed what you 
are saying, and I would like to put that report in the record.
    I would like to know from the chairman if he would consider 
having--I know my time is up--the next hearing with the Justice 
Department and the Voting Rights Division on why they made this 
decision. I think that would be an appropriate hearing for the 
Members of Congress and the American public.
    Mr. Miller. We are having two hearings in July, one dealing 
with the American community survey issue, which gets to the 
long form. I think that would be of great interest.
    We continue now on the second round, and Mr. Souder is 
next.
    First, though, Mrs. Maloney was talking about the use of 
these adjusted--you use the word ``corrected,'' which is a 
political term, and I think it should be ``adjusted'' data. 
When you use the aggregate, we average out errors basically. 
The problem is that at the block level we have error rates. And 
our argument and what the courts are looking at, block level 
data--and how many people are in a block? What is the average 
size of a block?
    Mr. Prewitt. Thirty households.
    Mr. Miller. When you adjust a block and you have to add 
this virtual person or delete a real person is where you get 
the high error rate. And redistricting is done at the block 
level. You take away a block there or add a block here, and 
that is where you run into errors. The BLS, when you are 
talking about the population of the State of California, that 
is one thing. But we are talking about redistricting, which is 
block level data, and that has a high degree of inaccuracy.
    Mr. Souder.
    Mr. Souder. I would just like to note for the record, which 
I didn't bring up earlier, I want to note for the record that 
part of this--first off, whichever party isn't in power in the 
executive branch is certainly going to call you up, whether you 
spend too much money or less money. That is what oversight is, 
by the way.
    Part of my frustration has been we are now griping about 
the end because--I represent Fort Wayne, IN, and we have had a 
continuing battle. We cannot get the maps. The local person was 
still complaining just a couple of months ago that they didn't 
have the newly annexed maps. We have battled this problem for 
roughly 2 years now. We also--and the Chicago director was very 
responsive, came down to meet with a lot of my urban pastors 
and leaders in the community who were very concerned about an 
undercount. And Fort Wayne at 220,000 people, roughly, will 
hopefully have a better count, because the only place that they 
advertised for census workers were out at two suburban 
libraries.
    We have this influx--for one thing, I have learned through 
the Historic Society, that I have the largest Burmese 
population in the United States, and also we do immigration in 
our office, and because we have one of the dissident professors 
and two of the legislators, we have got this big influx. We 
have--I know that we are going to undercount the surge of 
Hispanic people in our area because we don't have any census 
people out checking them. They should have gone immediately to 
the Catholic Church where these people go, but instead were out 
in the suburbs. Now we are saying we are going to have to 
adjust the count. Well, yeah, if you don't have the right maps 
and don't have the right workers, we probably are going to have 
to do some adjustments in counts. But understand, that is what 
leads to some of our not completely unjustified paranoia that 
we are being a little set up, not necessarily on purpose, 
because you have a massive thing, and that is what makes some 
of us paranoid.
    Now, nonresponsiveness, the long form and short form. The 
long form is so essential for information, but as somebody who 
got the long form--and also I want to praise one other part of 
your program. By going into the schools, my son, as I was mad 
about getting the long form and complaining about the 
questions, my 12-year-old came over and said his teacher said 
he was supposed to watch us fill it out. So I had to compromise 
my anger as I was going through the long form. I can understand 
a lot of people who may not have had their son there at the 
moment, or who were even more upset about what they viewed as 
intrusiveness, and then it was blown into the media and that 
led to other kinds of problems.
    But I have a letter that I would like unanimous consent to 
insert into the record. It is from Ms. Carol Hugo. It is to 
her, a portfolio director, from the regional director, and she 
is based in San Jose and it has to do with gated communities.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2446.020
    
    [GRAPHIC] [TIFF OMITTED] T2446.021
    
    Mr. Souder. The line that is in question here--and the code 
is cited that says if you are the owner, proprietor, 
superintendent, or agent of any lodging facility and you 
basically refuse to furnish the names of occupants--but the--or 
give free ingress and egress therefrom. But the line that is in 
question is, ``We anticipate that you will provide our census 
enumerators access to the apartment complexes and information 
to substantiate occupancy status as of April 1.''
    That led many of these types of communities to feel that 
that was an information request beyond access, because it 
potentially puts them into other information. And for those 
who, rightfully or wrongfully, are very concerned about 
government having all kinds of access to information, has 
opened up another can of worms and then led to information 
going around. Is this official policy that this can be 
requested; and if so, on what in the code?
    Mr. Prewitt. I want to make certain that I give you a good 
answer on this, so I may want to write you afterwards. It 
certainly was not our intent to try to get Title 13, that is 
confidential data, in this manner. We have apartment 
complexes--I visited one the other day, for example--where we 
had not gotten a response from unit 101, 102, 103 and then 201, 
202 and then 306. And I went with the enumerator and we went to 
that apartment complex. Well, 101, 102, and 103 were storage 
bins. They look like addresses, but they were storage bins. My 
guess is that is what this intends to identify: Are there any 
units which are not inhabitable units? But if it is more than 
that, I will get back to you. I prefer not to give you a 
complicated explanation. We protect the confidentiality every 
step of the way.
    Mr. Souder. Even if that is the intent, I would suggest 
that this type of wording scares people and leads to a lot of 
problems and then leads to nonresponse and leads us back into 
estimating.
    If I can ask unanimous consent to ask one additional 
question. I had a questionnaire come both to my house in 
Indiana and to my apartment in Virginia, and then had a person 
knock on the door, and I took the time then to call back to 
tell that person I can't be counted both places. But it led me 
to just wonder about another thing: Would I have been estimated 
and adjusted? How would you have known that I was a Congressman 
and had already been counted?
    Mr. Prewitt. The housing unit of the apartment would have 
been coded, like seasonal housing. I presume you responded at 
your home. Lots of people have two or three houses. The form 
comes back, ticked off ``seasonal housing.''
    Mr. Souder. How do you know it is seasonal?
    Mr. Prewitt. That is a code that we use. You have two 
homes. One is your primary residence. You are counted there. 
Your second home will be taken off of the master address file. 
That is this huge operation that we are about to go into the 
field now to cross-check.
    Mr. Souder. You cross-check actual names?
    Mr. Prewitt. We actually go back to all of those housing 
units and try to determine what their unit status is. That is 
our job. Sometimes we ask building managers and they will say 
that is somebody who primarily lives somewhere else; that is a 
vacation home, and that becomes ticked off that way. That is 
the operation that we are about to engage in.
    Mr. Ford. What if he sent back both of them? How do you 
know which is primary and which is seasonal?
    Mr. Prewitt. If they both came back in, he decided to break 
the law, we wouldn't find them. We can't match a response that 
comes in from Fort Wayne and a response that comes in from 
Virginia. That would be a fraudulent response.
    Actually, the accuracy and coverage evaluation system would 
find instances of that case, and we would then estimate the 
total number of those cases. That is what creates the 
overcount, people sending in forms in from more than one house.
    Mr. Souder. There is no way--let me just have a second. 
There is no way for anybody to identify that I am seasonal 
because I pay, regularly, monthly rent. My apartment is in an 
urban area in Arlington. I am wondering if after several 
visits--and they can't even find me. If I had not called back 
because I happened to one-time check my phone messages, because 
we are here late, I commute back and forth, and I know in this 
particular complex there are people who are lobbyists who will 
come in. Their company may have an apartment under their name, 
and I am wondering how those people--would they be estimated 
based on the number of people in the apartment? How would you 
pick up the fact that--the difference between me and somebody 
who wasn't responding?
    Mr. Prewitt. What the accuracy and coverage evaluation is, 
it goes to 314,000 housing units across the country. We use an 
instrument which probes and probes and probes. We will go back 
to a sample of those kinds of units. That is a sample, and we 
will probe until we are certain what the characteristic of that 
household is. If the characteristic of that household is 
somebody who has a primary residence somewhere else, that is 
what the statistical adjustment handles. That is what the whole 
purpose is.
    We think that it is a superior way than just leaving both 
of those records sitting there. As I go back to my opening 
statement: A census is a series of operations that tries to get 
what is necessarily an estimate, closer to the truth. If we 
stop the census today, we would have an estimate. We think by 
additional operations we can move that estimate closer. We do 
not think that we can get to perfection. We do not think that 
we can get to the identical number of people who live in this 
country on April 1, 2000. It is an impractical kind of goal. So 
we say how close can we get the estimate to that truth.
    Mr. Souder, back on the political thing, if I can, sir, I 
have thought, read about, written about, feel very strongly 
about the way in which the decennial census has been caught up 
in a partisan battle. So I don't mean to suggest that I am not 
paying attention to that as an academic.
    I have written an essay recently which tries to recommend 
ways to get out of that. It is counterintuitive. I don't think 
that you will get out of it to get the Census Bureau removed 
from politics. I think we can get the data collection removed 
from politics, but the application of the data will necessarily 
be political and legal.
    What I am concerned about is the politics are now about how 
we collect data, not how we use data, and that is what is not 
good for a society. We have to be able to collect the data in 
as nonpartisan, independent fashion as possible, and then use 
the data in the political-legal process. The Census Bureau is 
comfortable with that. We want to collect the data using the 
best statistics that we know how to collect.
    Mr. Souder. What is extraordinary about the debate is you 
have a subcommittee chairman who is actually a statistician, a 
mathematician. I am a business person, undergraduate and 
graduate. I have taken many statistics and operations research 
courses, done marketing research, and we are enamored with 
statistics. Tom has studied statistics of every district in the 
country. The irony is you have arguably on our side more people 
who are fascinated with statistics than sometimes on the other 
side. Ultimately, this is really a political debate of how 
statistics are used. Figures lie, liars figure; it is the 
colloquialism. And that is what we have to watch doesn't 
happen.
    Mr. Miller. Mr. Ford.
    Mr. Ford. The only way I think we can do what you've said 
is if we import Martians here, who have no political history 
and no history of making contributions to anyone.
    Briefly, how does your overall workload compare to perhaps 
the last two or three censuses, your overall performance and 
operations?
    Mr. Prewitt. Every major operation has been superior to 
those in 1980 and 1990. Does that mean perfection? No. But we 
are ahead of schedule.
    Mr. Ford. I congratulate you, and we hope that you continue 
your good work.
    I would make the point again about politics. I don't know 
how we avoid it. Mr. Davis, you are my friend; I would not cast 
aspersions on any of your questions or motivations. The fact 
that you are chairman of a committee whose primary purpose is 
to maintain the majority for your party in the Congress, I 
respect that.
    I have a chairman on my side, Patrick Kennedy, and I know 
that you and he have a good personal relationship, although you 
disagree philosophically. I take you at your word when you say 
certain things. I could only hope that you would accord my side 
the same courtesy.
    And to my friend, Mr. Souder, true, there may be folks on 
your side who have greater interest and experience in 
statistics, more so perhaps than our side; I don't know, 
perhaps you have studied this. But, I don't think that gives 
you any more right--I may say we have visited more schools than 
you guys, so we are better experts on education than you are. I 
wouldn't dare say that. But I would hope that the politics of 
this, we could divorce it, and perhaps it is impossible to do 
that and we should just say that.
    I do find it interesting that the only people today talking 
about politics incessantly have been us. He hasn't mentioned 
it. Every question that we have raised with him, he has denied 
having any political biases or prejudices, and I understand 
that people bring that to any debate. But to suggest that he 
should have an answer to a decision made by the Department of 
Justice, I think is somewhat asinine.
    I don't know why we would question him and almost badger 
him as to what his thoughts are, what he would have us do. No 
one accused the Conference Committee on Managed Care Reform of 
waiting for the Supreme Court to make a decision on whether you 
can sue HMOs. I would not dare do that. The court has spoken.
    We would have as many political reasons on this side to say 
look, you are holding this up because you want the court to 
decide, and the majority of the court is Republican appointees. 
They are going to follow the Republican law and we will get a 
conference committee report that will favor Republicans. No one 
would dare suggest that.
    I hope at some point that we can cease this, and perhaps it 
will take an election to do this, and the people will have an 
opportunity to speak.
    We appreciate, Mr. Prewitt, the work that you and your 
staff have done here and across the country. I salute the 
regional director that covers the State of Tennessee, Sue 
Hardy, and others. You have done a great job in the face of 
withering attacks from us, oftentimes unjustified and sometimes 
justified, and I would hope that we can give you the support 
that you need to finish this job, and I will work closely with 
Mrs. Maloney. And I must say, she has been a stalwart and a 
warrior on our side ensuring funding has been there. I want to 
thank her and say, Mr. Prewitt, go back to work. We have called 
you before this committee too many doggone times. Get us an 
accurate count so we can put aside all of this talk about 
politics, apportioning and redistricting, and Mr. Kennedy and 
Mr. Davis can go at it and we can see what happens in November. 
With that, I yield back.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Virginia. I wanted to ask you on this final 
attempt, a lot of attention is being paid to the pace with 
which the Bureau is completing its nonresponse followup 
workload and I think you have reported the nonresponse followup 
is completed ahead of schedule in many cases, with no problems 
in staffing. Many offices report that they have come in under 
budget. I think that is great.
    But I want to understand--the most difficult to count are 
in the last 5 percent of the nonresponse followup--yet counting 
this last 5 percent, the final attempt procedures where we are 
saying that we--all final attempts must be completed in a 
matter of 3 to 4 days. What is the thinking behind that?
    Mr. Prewitt. What happens, Mr. Davis, when we get to a 
certain point, we just say roughly 95 percent of an area, every 
case gets the same treatment. That is, every case gets the full 
complement. And what the final attempt is is an organizational 
way to get all of the cases in the hands of your best 
enumerators. So we let a lot of the enumerators go at that 
stage. We are down to the last few hard cases, and we reassign 
the workload. And then we use a blitz strategy, because our 
experience over the years suggests if we blitz it and go after 
it, we will get more of those cases in.
    After that we go into closeout procedures, and that is a 
different procedure after that. But every household gets all of 
those visits. At a certain point you do quit trying, because 
you have been there and been there and been there. I have had 
people tell me, I am not going to answer this questionnaire. We 
then go to other mechanisms to try to get the household count.
    Mr. Miller. I think we need to end to get to the vote. I 
think it is very important for this process that you have come 
forward monthly. It is not always the highlight of your day or 
week.
    Mr. Prewitt. I do hope that this subcommittee has a hearing 
sometime this fall, whenever, that addresses the big question 
of how to get the decennial census out of the political 
environment. I think that is very, very important. And it has 
not to do with these immediate operations, it has to do with 
the larger health of the Nation's statistical system.
    Mr. Miller. I ask unanimous consent that all Members and 
witness's opening statements be included in the record. Without 
objection, so ordered.
    I would like to enter several pieces of correspondence from 
Director Prewitt to me regarding census operations. Without 
objection, so ordered. As well as CRS legal analysis of the 
proposed regulations.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2446.022
    
    [GRAPHIC] [TIFF OMITTED] T2446.023
    
    [GRAPHIC] [TIFF OMITTED] T2446.024
    
    [GRAPHIC] [TIFF OMITTED] T2446.025
    
    [GRAPHIC] [TIFF OMITTED] T2446.026
    
    [GRAPHIC] [TIFF OMITTED] T2446.027
    
    [GRAPHIC] [TIFF OMITTED] T2446.028
    
    [GRAPHIC] [TIFF OMITTED] T2446.029
    
    [GRAPHIC] [TIFF OMITTED] T2446.030
    
    [GRAPHIC] [TIFF OMITTED] T2446.031
    
    [GRAPHIC] [TIFF OMITTED] T2446.032
    
    [GRAPHIC] [TIFF OMITTED] T2446.033
    
    [GRAPHIC] [TIFF OMITTED] T2446.034
    
    [GRAPHIC] [TIFF OMITTED] T2446.035
    
    [GRAPHIC] [TIFF OMITTED] T2446.036
    
    [GRAPHIC] [TIFF OMITTED] T2446.037
    
    [GRAPHIC] [TIFF OMITTED] T2446.038
    
    [GRAPHIC] [TIFF OMITTED] T2446.039
    
    [GRAPHIC] [TIFF OMITTED] T2446.040
    
    [GRAPHIC] [TIFF OMITTED] T2446.041
    
    [GRAPHIC] [TIFF OMITTED] T2446.042
    
    [GRAPHIC] [TIFF OMITTED] T2446.043
    
    [GRAPHIC] [TIFF OMITTED] T2446.044
    
    [GRAPHIC] [TIFF OMITTED] T2446.045
    
    [GRAPHIC] [TIFF OMITTED] T2446.046
    
    [GRAPHIC] [TIFF OMITTED] T2446.047
    
    [GRAPHIC] [TIFF OMITTED] T2446.048
    
    [GRAPHIC] [TIFF OMITTED] T2446.049
    
    [GRAPHIC] [TIFF OMITTED] T2446.050
    
    [GRAPHIC] [TIFF OMITTED] T2446.051
    
    [GRAPHIC] [TIFF OMITTED] T2446.052
    
    [GRAPHIC] [TIFF OMITTED] T2446.053
    
    Mr. Miller. If there are additional questions from our 
members, I ask unanimous consent that the record remain open 
for 2 weeks for members to submit questions for the record.
    Thank you again, Director Prewitt.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2446.054

</pre></body></html>
